NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


                     REAL ESTATE LENDING
                           SURVEY



                          Report #OIG-07-07
                          September 5, 2007




                           William DeSarno
                           Inspector General


 Released By:                                  Auditor-in-Charge:



 James Hagen                                   Charles E. Funderburk, CPA
 Assistant Inspector General for Audits        Senior Auditor
                     TABLE OF CONTENTS


                                         Page

EXECUTIVE SUMMARY                         2

BACKGROUND                                4

PURPOSE AND OBJECTIVES                    5

SCOPE AND METHODOLOGY                     5

RESULTS                                   6

APPENDIX I – AGENCY COMMENTS              11
                            EXECUTIVE SUMMARY

As of December 31, 2006, federally chartered credit unions held approximately $131
billion in real estate loans. In addition, within the past year the U.S. Congress has shown
an interest in regulatory practices with regard to sub-prime mortgage lending, particularly
with certain types of adjustable rate mortgages.

Therefore, the Office of Inspector General conducted an audit survey to determine if
there are any real estate lending risks in federally chartered credit unions which could
lead to an audit engagement. Initially, we attempted to review the area of sub-prime
mortgages. However, we determined that NCUA does not collect data on sub-prime
mortgage loans via the credit union quarterly call reports. Currently, these loans are
captured for reporting purposes within a much larger group of mortgage loans that
include adjustable rate mortgages as well as balloon/hybrid loans. Consequently, it was
not possible to specifically identify sub-prime mortgage loans.

The Office of Inspector General determined through this survey that an audit of credit
union real estate lending is not warranted at this time primarily because, as explained
above, NCUA does not collect data on sub-prime mortgages. Furthermore, our sample
review of credit unions with high real estate loans to total loan ratios indicated that such
credit unions pose no greater overall risk than all federally chartered credit unions viewed
as a whole. In reaching this conclusion, we conducted a survey the objectives of which
were to:

    1. Determine the significance of real estate lending in the credit union industry;
    2. Identify potential real estate lending risks in the credit union industry; and
    3. Determine what NCUA is doing to mitigate identified potential real estate lending
       risks.

Real estate lending is a significant program of federally chartered credit unions. A
significant percentage (34%) of federally chartered credit unions has real estate lending
programs. Real estate loans comprise 49% of total loans in federally chartered credit
unions and 34% of total assets. Approximately 20% of federal credit unions have 25% or
more real estate loans to assets and over 4% have 50% or more real estate loans to assets.

Real estate lending potentially impacts all seven risk component areas NCUA has
identified in its Examiners Guide:

    •   Credit risk due to loan underwriting quality and products offered;
    •   Interest rate risk due to mortgage mismatches with the types of funding and rising
        interest rates;
    •   Liquidity risk that can occur with high loan to share ratios and holding of loans;
    •   Compliance risk with regard to real estate consumer compliance regulations;
    •   Transaction risk due to the complexity of real estate transactions and products;
    •   Strategic risk due to the complexity and foresight in planning; and



2
    •   Reputation risk whereby a credit union may be impacted by all of the above risks.

NCUA appears to be identifying and addressing most potential real estate lending risks.
This is evidenced through the agency’s issuance of extensive guidance for examiners and
credit unions, identification of risk trends in quarterly reports, and statistical data
analysis. However, we identified the following areas where potential risk may be
elevated due to current practices:

    •   A lack of examination documentation 1 in support of examiner loan reviews and
        consumer compliance reviews;
    •   A lack of credit union management planning and oversight in such areas as
        business plans, asset liability management, and budgeted/planned parameters
        directly related to real estate lending.

These items are discussed in the results section of this report.




1
 It is not NCUA policy for examiners to detail work performed during an examination as long as no
problems were found by the examiner. Consequently, while we could not identify all of the examination
procedures performed, we did find that examiners were following established procedures.



3
                                    BACKGROUND
As of December 31, 2006, federally insured credit unions held over $244 billion in real
estate loans. This amount represented 49 percent of total loans and 34 percent of total
assets. Over $159 billion of these loans were first mortgage loans and more than $84
billion were other real estate loans such as lines of credit. Fifty seven percent of the first
mortgage loans were fixed rate loans; twenty six percent were balloon/hybrid loans; and
seventeen percent were adjustable rate loans.

                           Figure 1 - Percentage First Mortgage Loans



                           17


                                                            fixed rate
                                                            ballon/hybrid
                                                 57         adjustable rate
                      26




In 1977, credit unions were authorized to make first lien mortgages. Since then, laws,
regulations, and guidance have continued to evolve to address real estate secured loans,
risk management, real estate appraisals, and consumer compliance.

Within the past year, the U.S. Congress has shown an interest in regulatory practices with
regard to sub-prime mortgage lending, particularly with certain types of adjustable rate
mortgages. Since NCUA does not collect specific data on sub-prime loans on credit
union quarterly call reports, the Office of Inspector General could not effectively review
this area.

The agency issues real estate lending guidance to examiners and credit unions. The
majority of this guidance is found in the NCUA Examiner’s Guide and in various Letters
to Credit Unions. In addition, the agency monitors trends in credit unions and produces
risk trend reports. Examiners perform examination and supervision risk-based
procedures in credit unions, which include reviews of real estate lending.




4
                         PURPOSE AND OBJECTIVES
The purpose of this audit survey was to determine if real estate lending risks exist in
federally chartered credit unions which could lead to an audit engagement.

The objectives of this survey were to:

    1. Determine the significance of real estate lending in the credit union industry;
    2. Identify potential real estate lending risks in the credit union industry; and
    3. Determine what NCUA is doing to mitigate identified potential real estate lending
    risks.


                        SCOPE AND METHODOLOGY
The scope included federally chartered credit unions, as of December 31, 2006, with real
estate lending programs.

The engagement methodology included the following:

    •   Review of agency real estate lending guidance;
    •   Review of applicable laws and regulations;
    •   Interviews with Office of Examination and Insurance staff;
    •   Assessment of real estate inherent and program risks;
    •   Review of a sample of ten federally chartered credit unions with the highest real
        estate loans to total loans ratio; and
    •   Analysis of quarterly call report data and reports.




5
                                       RESULTS
The Office of Inspector General has determined through this survey that an audit of credit
union real estate lending is not warranted at this time.

Objective 1: Determine the significance of real estate lending in the credit union
industry.

Real estate lending is a significant program of federally chartered credit unions. A
significant percentage (34 percent) of federally chartered credit unions has real estate
lending programs. Real estate loans comprise 49 percent of total loans in credit unions
and 34 percent of total assets. Approximately 20 percent of federal credit unions have 25
percent or more real estate loans to assets and over 4 percent have 50 percent or more real
estate loans to assets. In addition, the Office of Examination and Insurance considers real
estate lending a significant program.

Because NCUA does not collect specific data on sub-prime loans on call reports, we
could not determine the percentage of loans in this category. In February 2007, NCUA
reported to the Senate Banking Committee and House Financial Services Committee,
based on the Committee’s requests for information on subprime mortgage lending. In
particular, the Committee inquired about 2/28 and 3/27 type adjustable rate mortgages.
NCUA could not report how many loans were sub-prime but could report that these types
of mortgages are captured in the quarterly call report under the Hybrid /balloon ARMs
less than five years. As of December 31, 2006, this pool of loans accounts for less than 6
percent of all federally insured credit union loans. In addition, the subprime loans
account for only a portion of this category and reflect an even small percentage of loans.

As mentioned previously, our survey did not specifically identify and review sub-prime
mortgages because NCUA does not collect specific data on sub-prime loans on credit
union quarterly call reports. As a result, NCUA cannot provide statistics on sub-prime
mortgages and cannot readily identify credit unions that may have a more significant
portfolio of sub-prime mortgages.

Recommendation:
NCUA management should review the current tracking and reporting of sub-prime
mortgages and determine if these mortgages should be specifically reported on the credit
union quarterly report.

Management Response:
Management has reviewed this recommendation and stated that “Since no specific
empirical definition of subprime lending exists, it would be difficult for credit unions to
gauge which loans were subprime and were thus required to be reported if a reporting
requirement were enacted.”




6
Objective 2: Identify potential real estate lending risks in the credit union industry.

Real estate lending potentially impacts all seven risk component areas identified by
NCUA in its Examiners Guide. The potential real estate lending risk for each component
is as follows:

    •   Credit risk is inherent in loan programs with the degree of risk dependent upon
        the quality of loan underwriting and the products offered.
    •   The primary interest rate risk involves low fixed rate mortgages mismatched with
        the types of shares/borrowing in the credit union and rising interest rates.
    •   Liquidity risk can occur with high and/or increasing loan to share ratios, holding
        of loans, and migration of shares.
    •   Compliance risk is present due to the fact that many consumer compliance
        regulations are related to real estate lending.
    •   Transaction risk is related to the complexity of real estate transactions and
        products.
    •   Strategic risk is due to the complexity of and foresight involved in planning for
        the types and amounts of various real estate products.
    •   Reputation risk to the credit union is impacted by all of the above risks.

Objective 3: Determine what NCUA is doing to mitigate identified potential real estate
lending risks.

NCUA appears to be identifying and addressing most potential real estate lending risks.
This is evidenced through the issuance of extensive guidance, identification of risk trends
in quarterly reports, and statistical data analysis. However, there are a few areas where
potential risk may be elevated due to the following:

    •   A lack of examination documentation in support of examiner loan reviews and
        consumer compliance reviews; and
    •   A lack of credit union management planning and oversight in such areas as
        business plans, asset liability management, and budgeted/planned parameters
        directly related to real estate lending.

The Office of Examination and Insurance issues real estate lending guidance. Regional
examiners review real estate lending programs based upon risk and address safety and
soundness concerns. In addition, examination policy and procedures are extensive and
provide comprehensive real estate lending guidance. Furthermore, NCUA is actively
involved with other federal and state regulators to address the risk of foreclosure due to
sub-prime or nontraditional mortgages.

The Office of Examination and Insurance identified the following risk trends in real
estate lending in its December 31, 2006, Risk Trends Report:




7
     •   Continued real estate growth and expansion into more variable rate credit
         products;
     •   The majority of loan growth is seen in real estate lending and, if loan growth
         continues to exceed share growth, liquidity pressures could emerge;
     •   Without an adequate asset-liability process with the dominant loan category
         identified as real estate, the level of interest rate risk could be elevated;
     •   Real estate delinquency has increased, which is counter to the trend in total
         delinquency; and
     •   Increasing loan rates may continue to put pressure on consumers to seek fixed rate
         real estate products as variable rate loans begin to reprice, particularly with any
         exotic variable rate real estate loans with special balloon options. These loans
         will continue to pose a higher degree of credit risk.

Call Report Statistical Analysis
We conducted a statistical analysis of federally chartered credit unions with a heavy
concentration of real estate loans as of December 31, 2006. Our testing showed that
credit unions with a concentration of real estate loans show a no greater overall risk
position than all federally chartered credit unions.

We analyzed December 31, 2006, call report data and financial performance ratios for all
federally chartered credit unions with real estate loans to assets greater than 50 percent
and having at least $100 million in total assets. We identified 97 federally charted credit
unions with total assets of at least $100 million and with a heavy concentration of real
estate assets; 119 federally charted credit unions with total assets under $100 million with
a heavy concentration of real estate assets; and 5,187 total federally charted credit unions
at December 31, 2006.

              Figure 2 – Percentage FCUs by Real Estate Loans/Assets Ratio


    50.00%

    40.00%
                                     50-100%
    30.00%
                                     25-49%
    20.00%                           1-24%
    10.00%                           0%

    0.00%
                  # FCUs




The results of the analysis are as follows:

Overall CAMEL –
   • 97.9 percent of the sampled 97 FCUs had a composite 1 or 2 CAMEL rating.
       Whereas, 78.3 percent of all FCUs had a composite 1 or 2 CAMEL rating. This




8
       indicates that overall, these credit unions are in better condition than all other
       federally chartered credit unions.
Capital –
   • 73 percent of the sampled FCUs had a Net Worth ratio lower than their peer
       average. This indicates that these credit unions do not have as large a cushion of
       safety as other credit unions within their peer.
Asset Quality –
   • 75 percent of the sampled FCUs had Delinquency ratios below their peer average.
   • 89 percent of the sample FCUs had Charge-Off ratios below their peer average.
   • 67 percent of the sample FCUs had Real Estate Loan Delinquency ratios below
       their peer average. In addition, 77 percent of the 119 FCUs under $100M had
       Real Estate Loan Delinquency ratios below their peer averages. These ratios
       indicate that, at least presently, these credit unions have a lower credit risk
       compared to their peers.
Earnings –
   • 51 percent of the sampled FCUs had a Return on Assets ratio greater than peer.
       This ratio indicates that these credit unions have earnings relatively equal to their
       peers.
Asset Liability Management –
   • 89 percent of the sampled FCUs have a higher Loan to Share ratio compared to
       their peers.
   • 72 percent of the sampled FCUs have a higher Net Long Term Asset ratio
       compared to their peers.
   • 78 percent of the sampled FCUs have lower Core Shares to Total Shares and
       Borrowings ratios compared to peer.
   • 66 percent of the sampled FCUs have Average Loan Yields below peer.
   • 54 percent of the sampled FCUs have a Net Interest Margin below peer. These
       ratios indicate that the sampled FCUs have an elevated Asset Liability
       Management risk, primarily in liquidity risk.

Potential Concerns from Testing

    During our testing of federally chartered credit unions with the highest concentrations
    of real estate loans to total loans, some potential audit issues were identified as
    follows:

    •   We found a lack of examination documentation in support of examiner loan
        reviews. For instance, there were several instances where the supporting loan
        review workpaper(s) were not present in the downloaded examination.
    •   We found a lack of examination documentation in support of examiner consumer
        compliance reviews. In reviewing the available documentation we could not
        determine if examiner consumer compliance reviews were completed. According
        to the Office of Examination and Insurance and upon examiner inquiry, we
        learned that there may be no specific consumer compliance review workpapers.
        Examiner-identified consumer compliance violations should be documented in the
        examination workpapers.



9
     •   We found several instances where Examiners noted and addressed in the
         workpaper a lack of credit union management planning and oversight in such
         areas as business plans, asset liability management, and budgeted/planned
         parameters that directly related to real estate lending.
     •   We noted indications of potential issues in credit union asset liability
         management. For instance, planning as mentioned above, mortgage sale issues
         for liquidity (e.g., approval, expertise), long term asset mismatches, and “hot”
         shares fueling growth.

It should be noted that it is not NCUA’s policy that examiners detail all work that they
performed in the course of an examination, so long as the Examiner found that no
problems existed. Consequently, while we could not identify all of the examination
procedures performed, we could conclude that the examiners were following established
procedures.




10
         APPENDIX I – MANAGEMENT COMMENTS

SENT VIA E-MAIL



TO:           William DeSarno, Inspector General
              Office of Inspector General


FROM:         J. Leonard Skiles, Executive Director

SUBJ:         Real Estate Lending Survey
              Report #OIG-07-07

DATE:         September 4, 2007


We agree that an audit of credit union real estate lending is not warranted at this
time; however, we have some concerns about comments made in the report.
Please find our comments below.

Lack of Documentation

We have reservations with the assertion in the Executive Summary and Results
sections of the report (pages 3, 7, and 9) that a lack of examination
documentation exists in support of examiner loan and consumer compliance
reviews. Under NCUA’s current risk-focused examination program,
documentation is not required for all areas of review when concerns or risks are
not identified in the course of examination or supervision scoping. Additionally,
certain review areas may not be included at all in the scope of the examination or
supervision contact, based upon the examiner’s professional consideration and
judgment of existing risk areas. These assessments and the examination steps
completed are documented in the scope workbook. Additionally, we have on-
going quality control processes in place to evaluate the adequacy of examination
documentation.

NCUA’s Examiner’s Guide indicates that when loan reviews are warranted, an
AIRES loan review or self-designed workpaper can be used to support the loan
area reviewed, and noted concerns should be documented in the AIRES Loan
Exceptions or self-designed workpapers. Likewise, when consumer compliance
reviews are warranted or occur as part of the required examination process,
examiners are required to document compliance violations in the examination
questionnaires, as well as in the compliance violation log. In footnote 1, the
report indicates “...examiners were following established procedures...” with
regard to examination documentation.




11
          APPENDIX I – MANAGEMENT COMMENTS

Tracking of Subprime Mortgages

One recommendation in the report (page 6) indicated that NCUA management
should review the current tracking and reporting of subprime mortgages and
determine if these mortgages should be specifically reported on the call report.
While we do not object to this recommendation, the Office of Examination and
Insurance continually reviews and updates the required reporting content for the
quarterly 5300 call report and has previously considered whether to require
reporting in this area. A significant barrier to the collection of this data exists.
NCUA’s definition of subprime lending, which closely matches the definition of
subprime lending agreed upon by the federal banking regulators, includes loans
made to borrowers who have weak credit histories (e.g., delinquent payments,
charge-offs, judgments, bankruptcies), or reduced payment capacity (e.g., high
debt ratios or low credit scores). Since no specific empirical definition of
subprime lending exists, it would be difficult for credit unions to gauge which
loans were subprime and were thus required to be reported if a reporting
requirement were enacted.

Thank you for the opportunity to comment. If you have any questions, please
contact me.




12
